No. 20-1453
IN THE

Supreme Court of the United States
CAL CARTAGE TRANSPORTATION EXPRESS, LLC;
CCX2931, LLC; K&R TRANSPORTATION CALIFORNIA,
LLC; KRT2931, LLC; CMI TRANSPORTATION, LLC;
CM2931, LLC,
Petitioners,
v.
THE PEOPLE OF THE STATE OF CALIFORNIA;
SUPERIOR COURT OF LOS ANGELES COUNTY,
Respondents.

CERTIFICATE OF SERVICE
I hereby certify that I am a member in good standing of the bar of this Court and
that on this 3rd day of May, 2021, I caused Petitioners’ letter granting blanket consent
to the filing of amicus curiae briefs to be served as indicated below on the individuals
identified below, and caused an electronic version to be transmitted to the individuals
identified below, pursuant to Rule 29 of the Rules of this Court and this Court’s April
15, 2020 Order. All parties required to be served have been served.

Counsel for Respondent People of the State of California:
Danielle L. Goldstein
OFFICE OF THE LOS ANGELES CITY
ATTORNEY
200 N. Spring Street, 14th Floor
Los Angeles, CA 90012-4131
(213) 978-1868
Danielle.Goldstein@lacity.org
Served electronically pursuant to
consent to service by email

Pro Se Respondent:
Hon. William F. Highberger
SUPERIOR COURT OF LOS ANGELES
COUNTY
312 N. Spring Street, Department 10
Los Angeles, CA 90012
(213) 310-7010

Clerk of Court
CALIFORNIA COURT OF APPEAL, SECOND
DISTRICT, DIVISION 4
Ronald Reagan State Building
300 S. Spring Street
2nd Floor, North Tower
Los Angeles, CA 90013
(213) 830-7000

Served via U.S. Mail

Served via U.S. Mail

/s/ Joshua S. Lipshutz
Joshua S. Lipshutz

2

